November 23, 2020
Writer’s Direct Contact
(202) 220-1101
(213) 683-4007 FAX
Donald.Verrilli@mto.com

Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
Re:

Republican Party of Pennsylvania v. Boockvar, et al., No. 20-542

Dear Mr. Harris:
I am writing on behalf of the Pennsylvania Democratic Party Respondents in the
above-referenced case to request an extension of 5 days, to and including Monday, November
30, 2020, for the filing of a brief in opposition to the petition for a writ of certiorari. Absent an
extension, the brief in opposition would be due on Wednesday, November 25, 2020. The
requested extension would align the deadline for filing a brief in opposition in this case with the
deadline for filing a brief in opposition in the companion case, Scarnati, et al. v. Pennsylvania
Democratic Party, et al., No. 20-574. This is the first extension the Pennsylvania Democratic
Party Respondents have sought.
Thank you very much for your time and assistance on this matter.

Scott S. Harris
November 23, 2020
Page 2

Sincerely,

Donald B. Verrilli, Jr.
cc:

Counsel of Record

